FY 2007 Performance Report




  Social Security Administration
  Office of the Inspector General
                  Table of Contents



Executive Summary…………………………………………………..              1

Performance Results……………………………………….…………             2

Performance Discussion and Analysis ……………………….………   3

    Goal 1 – Impact ……………………………………………….. 3

    Goal 2 – Value ………………………………………………… 5

    Goal 3 – People ………………………………………………... 8

Historical Comparison………………………………………………… 10
                MISSION STATEMENT



By conducting independent and objective audits, evaluations and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste and abuse. We
  provide timely, useful and reliable information and advice to
        Administration officials, Congress and the public.




                 VISION and VALUES


     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
    prevent and deter fraud, waste and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                            EXECUTIVE SUMMARY



The 2007 Performance Report (i.e. Report) highlights the Office of the Inspector
General’s (OIG) results for the second year of our Fiscal Year (FY) 2006-2010 Revised
Strategic Plan. We operate within a framework set by our three general goals: the Impact
our investigations, audits, and legal activities have on SSA’s effectiveness and efficiency;
the Value we bring to Social Security and the citizens we serve; and the People of the
OIG, who are superior in both their efforts and professionalism. These general goals are
further broken down into 14 separate performance measures. All of these targets are
designed to support OIG’s core mission of inspiring public confidence by detecting and
preventing fraud, waste, and abuse in SSA’s programs and operations. For FY 2007, we
successfully met the targets for all 14 performance measures.

Our accomplishments from this past year reflect a level of consistency that we have come
to expect of ourselves. Building on our successes from FY 2006, we once again
demonstrated that the faith of our stakeholders is justified. In some cases, we topped
results that were already outstanding. This year, for every $1 invested in our activities,
we returned $51 dollars through audits, investigations, and legal proceedings. This
Report also features an increase in our employee satisfaction rate.

During FY 2007, a focus group comprised of representatives from each of OIG’s
components was assembled to evaluate our Strategic Plan. The group reviewed our
current work, staffing, and performance measures to determine whether modifications
should be made to strengthen the composition of the Strategic Plan and future
Performance Reports. This workgroup made recommendations to increase a few
performance measures for FY 2008. We will continue to assess our organization, thus
rendering us consistently ready to stand up to the challenge of ensuring the integrity and
reliability of SSA’s programs and operations.




October 2007               SSA OIG FY 2007 Performance Report                        Page 1
                                    PERFORMANCE RESULTS


                                                                                            GOALS
GOAL                     DESCRIPTION                              TARGET RESULT          MET    NOT
                                                                                                MET
                                                   IMPACT
       Maintain an annual acceptance rate of at least
 1.1                                                               85%         97%         X
       85 percent for all recommendations.
       Through FY 2010, achieve a 5-year average
       implementation rate of 85 percent for accepted
 1.2                                                               85%         90%         X
       recommendations aimed at improving the integrity,
       efficiency and effectiveness of SSA.
       Achieve a positive action on at least 80 percent of all
 1.3                                                               80%         93%         X
       cases closed during the FY.
                                                    VALUE
       Generate a positive return of $4 for every tax dollar
 2.1                                                              $4 to $1   $51 to $1     X
       invested in OIG activities.
       Evaluate and respond to 90 percent of all allegations
 2.2                                                               90%         95%         X
       received within 30 days.
       Complete investigative fieldwork on 75 percent of all
 2.3                                                               75%         92%         X
       cases within 180 days.
       Respond to 90 percent of congressional requests within
 2.4                                                               90%         99%         X
       21 days.
       Take action on 90 percent of Civil Monetary Penalty
 2.5                                                               90%         95%         X
       (CMP) subjects within 30 days of receipt.
       Achieve a positive internal and external user
 2.6   assessment rating of 85 percent for                         85%         88%         X
       product-service quality.
       Issue 75 percent of final audit reports within 1 year of
 2.7                                                               75%         93%         X
       the entrance conference with SSA.
       Complete 80 percent of requests for legal advice and
 2.8                                                               80%         98%         X
       review within 30 days.
                                                   PEOPLE
 3.1   Achieve an annual attrition rate of 5 percent or less.       5%         4%          X
       Conduct an annual employee job-satisfaction survey
 3.2   and implement corrective action plans to identify areas     81%         83%         X
       where improvement is needed.
       Ensure that 90 percent of OIG staff receives 40 or
 3.3   more hours of appropriate developmental and                 90%         96%         X
       skill-enhancement training annually.




         October 2007                SSA OIG FY 2007 Performance Report                  Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS


This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the three general areas. We
state each goal, its associated results and describe the method of calculation. We also
discuss, where appropriate, why we believe we were successful or unsuccessful in
meeting our goals.


  Goal 1 - IMPACT
                Enhance the integrity, efficiency and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

    1. Promote an OIG-wide process for cross-component communications on potential
       programmatic and operational vulnerabilities.

    2. Communicate with the Agency to identify mission-critical issues and operations
       that would benefit from OIG audit and investigation services and develop
       practical solutions to address identified weaknesses or deficiencies.

    3. Prioritize investigations, audits and counsel actions to effect more efficient and
       effective SSA programs and operations.


               Maintain an annual acceptance rate of at least           FY 2007 Result
 Goal 1.1
               85 percent for all recommendations.                        97 Percent

This measure is calculated by dividing the number of legislative, policy and regulatory
recommendations accepted by SSA and/or Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2007, our annual acceptance rate was 97 percent, exceeding our 85 percent goal. Of
the 289 recommendations we submitted during this period that have a management
decision, SSA agreed with 280.




October 2007                 SSA OIG FY 2007 Performance Report                   Page 3
               Through FY 2010, achieve a 5-year average
               implementation rate of 85 percent for accepted          FY 2007 Result
 Goal 1.2
               recommendations aimed at improving the                    90 Percent
               integrity, efficiency and effectiveness of SSA.

This measure is calculated by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2007 we are reporting the 5-year period
covering FYs 2002 through 2006. Our average implementation rate for accepted audit
recommendations was 90 percent, exceeding our 85 percent goal. During this period, SSA
implemented 1,419 of 1,580 accepted recommendations.

               Achieve a positive action on at least 80              FY 2007 Result
 Goal 1.3
               percent of all cases closed during the FY.              93 Percent

This measure is calculated by dividing the total closed cases that resulted in a positive
action during the FY by the total cases closed during the FY. If the subject has been
sentenced, the case referred for a CMP and/or an administrative action has been taken
against the subject, it is considered a positive action on the closed case. In addition, if
certain money types have been collected or certain referrals have been made it is considered
a positive action.

For FY 2007, we closed 9,967 out of 10,763 investigations with a positive action. This 93
percent performance rate exceeds our 80 percent target.




October 2007                SSA OIG FY 2007 Performance Report                  Page 4
  Goal 2 - VALUE
  Provide quality products and services of value in a timely manner to Congress, SSA
  and other key decision-makers while sustaining a positive return for each tax dollar
                              invested in OIG activities.

Strategies used to attain this goal include:

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service
      quality assessment instrument to measure internal and external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and
      services.

   4. Utilize information technology investments to enhance OIG work products and
      service delivery.

               Generate a positive return of $4 for every tax         FY 2007 Result
 Goal 2.1
               dollar invested in OIG activities.                       $51 to $1

This measure is calculated by dividing the total amount of all OIG savings identified during
the FY by the total amount of appropriated funds during the same period.

For FY 2007, we generated a return of $51 for every dollar invested in us by the taxpayer.
This rate of return was bolstered by an audit report entitled, Government Pension Offset
Exemption for Texas School Districts’ Employees (A-09-06-26086). In this report, we
identified over $2.1 billion in funds put to better use. Even without the extraordinary
savings resulting from this audit, we would still have a return of $28 for every dollar
invested, seven times our 4 to 1 target.

               Evaluate and respond to 90 percent of all              FY 2007 Result
 Goal 2.2
               allegations received within 30 days.                     95 Percent

This measure is calculated by dividing the total number of allegations closed or referred
within 30 days during the FY by the total number of allegations closed or referred during
the FY.

For FY 2007, we achieved a 95 percent rating. Of the 83,411 allegations closed or referred
during the FY, we closed or referred 79,522 within 30 days.




October 2007                 SSA OIG FY 2007 Performance Report                 Page 5
               Complete investigative fieldwork on 75 percent          FY 2007 Result
 Goal 2.3
               of all cases within 180 days.                             92 Percent

This measure is calculated by dividing the total number of investigations closed or referred
for prosecution, CMP, SSA or other State or Federal agency action within 180 days during
the FY by the total investigations closed or referred during the FY.

For FY 2007, we surpassed our 75 percent goal with a 92 percent rating. A total of 10,777
investigations were closed or referred during the FY. Of these, we closed or referred 9,914
cases for action within 180 days.

               Respond to 90 percent of congressional                  FY 2007 Result
 Goal 2.4
               requests within 21 days.                                  99 Percent

This measure is calculated by dividing the total congressional requests responded to within
21 days during the FY by the total number of congressional requests responded to during
the FY. Processing days are the days elapsed from receipt of a congressional request to the
date of a response.

For FY 2007, we achieved a 99 percent rating. Our office responded to 73 Congressional
inquiries during the FY. We responded to 72 of them within 21 days.

               Take action on 90 percent of Civil Monetary
                                                                       FY 2007 Result
 Goal 2.5      Penalty (CMP) subjects within 30 days of
                                                                         95 Percent
               receipt.

This measure is calculated by dividing the total number of CMP subjects against whom
action was taken within 30 days of receipt during the FY by the total number of CMP
subjects where action was taken during the FY. Actions include sending initial letters,
requesting investigative assistance or closing the CMP.

For FY 2007, we took action on 822 CMP subjects. Action was taken on 782 of those
subjects within 30 days of their receipt.

               Achieve a positive internal and external user
                                                                       FY 2007 Result
 Goal 2.6      assessment rating of 85 percent for
                                                                         88 Percent
               product-service quality.

This measure is calculated by using a five-tier rating scale measuring the degree of
satisfaction with OIG products and services by recipients and users, including SSA and
other government entities, such as Congress, Offices of U.S. Attorney, and external law
enforcement agencies. The numeric response is translated into a percentage with 85 percent
indicating satisfaction.

For FY 2007, we achieved an 88 percent rating, exceeding the 85 percent goal.


October 2007                SSA OIG FY 2007 Performance Report                   Page 6
               Issue 75 percent of final audit reports within 1        FY 2007 Result
 Goal 2.7
               year of the entrance conference with SSA.                 93 Percent

This measure is calculated by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2007, our office achieved a 93 percent rating, exceeding our goal of 75 percent. We
issued a total of 108 audit reports during the fiscal year. We issued 100 of these reports
within 1 year of their respective entrance conference.

               Complete 80 percent of requests for legal               FY 2007 Result
 Goal 2.8
               advice and review within 30 days.                         98 Percent

This measure is calculated by dividing the total number of legal opinions, subpoenas and
audit reviews completed by the Office of the Chief Counsel to the Inspector General within
30 days of receipt during the FY by the total number of requests for legal opinions,
subpoenas and audit reviews completed during the FY.

During FY 2007, we completed 567 of the 578 requests for legal opinions, subpoenas, and
audit reviews within 30 days of their receipt.




October 2007                SSA OIG FY 2007 Performance Report                   Page 7
    Goal 3 - PEOPLE
   Promote a skilled, motivated, diverse workforce in a positive and rewarding work
                                     environment.

Strategies used to attain this goal include:

   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional
      development and skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet
      different needs.

             Achieve an annual attrition rate of 5 percent or          FY 2007 Result
 Goal 3.1
             less.                                                       4 Percent

This measure is calculated by dividing the total number of employees separated (excluding
retirements and deaths) during the FY by the OIG Full-Time Equivalents for the FY.

For FY 2007, there were 23 separations from the OIG’s 610 Full-Time Equivalents. This
resulted in a 4 percent attrition rate.

             Conduct an annual employee job-satisfaction
                                                                       FY 2007 Result
 Goal 3.2    survey and implement corrective action plans to
                                                                         83 Percent
             identify areas where improvement is needed.

OIG’s Organizational Health Committee implemented an annual employee job-satisfaction
survey. The survey was first administered in FY 2006 to establish a baseline level of
employee satisfaction. In FY 2007 the survey was re-administered to measure progress
against this baseline.

Question 12 of this survey asks, “Considering everything, how satisfied are you with your
job?” Based on a 49 percent response rate, 83 percent of our employees indicated that they
are either satisfied or very satisfied with their jobs. This result represents an improvement
over our 81 percent satisfaction rate in FY 2006.




October 2007                 SSA OIG FY 2007 Performance Report                  Page 8
             Ensure that 90 percent of OIG staff receives 40
                                                                      FY 2007 Result
Goal 3.3     or more hours of appropriate developmental
                                                                        96 Percent
             and skill-enhancement training annually.

This measure is calculated by dividing the total number of OIG staff on board for the entire
FY receiving at least 40 hours of training during the FY by the total number of OIG staff on
board for the entire FY.

For FY 2007, 96 percent of our employees received 40 or more hours of appropriate
developmental and/or skill-enhancement training. Achieving this goal demonstrates OIG’s
commitment to having an adept and proficient workforce. The continual development of
our employees underlies our successful performance as an organization.




October 2007               SSA OIG FY 2007 Performance Report                   Page 9
                           HISTORICAL COMPARISON


                                                                    FY 2006     FY 2007
GOAL                      DESCRIPTION
                                                                   RESULTS     RESULTS
        Maintain an annual acceptance rate of at least
 1.1                                                                 93%         97%
        85 percent for all recommendations.
        Through FY 2010, achieve a 5-year average
        implementation rate of 85 percent for accepted
 1.2                                                                 92%         90%
        recommendations aimed at improving the integrity,
        efficiency and effectiveness of SSA.
        Achieve a positive action on at least 80 percent of all
 1.3                                                                 87%         93%
        cases closed during the FY.
        Generate a positive return of $4 for every tax dollar
 2.1                                                               $46 to $1   $51 to $1
        invested in OIG activities.
        Evaluate and respond to 90 percent of all allegations
 2.2                                                                 96%         95%
        received within 30 days.
        Complete investigative fieldwork on 75 percent of all
 2.3                                                                 84%         92%
        cases within 180 days.
        Respond to 90 percent of congressional requests within
 2.4                                                                 97%         99%
        21 days.
        Take action on 90 percent of Civil Monetary Penalty
 2.5                                                                 92%         95%
        (CMP) subjects within 30 days of receipt.
        Achieve a positive internal and external user
 2.6    assessment rating of 85 percent for                          88%         88%
        product-service quality.
        Issue 75 percent of final audit reports within 1 year of
 2.7                                                                 85%         93%
        the entrance conference with SSA.
        Complete 80 percent of requests for legal advice and
 2.8                                                                 95%         98%
        review within 30 days.
 3.1    Achieve an annual attrition rate of 5 percent or less.       2%          4%
        Conduct an annual employee job-satisfaction survey
 3.2    and implement corrective action plans to identify areas      81%         83%
        where improvement is needed.
        Ensure that 90 percent of OIG staff receives 40 or
 3.3    more hours of appropriate developmental and                  93%         96%
        skill-enhancement training annually.




October 2007               SSA OIG FY 2007 Performance Report                  Page 10
